US0A4 Appeal: 20-1U57
uoc: 16
hied: 07/17/2020
Hg:lot3
Case l:19-cv-02427-ADC Document 31-1 Filed 07/17/20 Page lot 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1057

SOLON PHILLIPS,
Plaintiff - Appellant,
v.

MARYLAND BOARD OF LAW EXAMINERS; JONATHAN AZRAEL; JOHN
MUDD; DAVID RALPH; MATTHEW MILLS,
Defendants - Appellees.

Appeal from the United States District Court for the District of Maryland, at Baltimore.
Albert David Copperthite, Magistrate Judge. (1:19-cv-02427-ADC)

Submitted: July 14, 2020

Decided: July 17, 2020

Before WILKINSON and WYNN, Circuit Judges, and TRAXLER, Senior Circuit Judge.

Affirmed in part, reversed in part, and remanded by unpublished per curiam opinion.

Solon Phillips, Appellant Pro Se. Michele J. McDonald, Assistant Attorney General, James
Nelson Lewis, OFFICE OF THE ATTORNEY GENERAL OF MARYLAND, Baltimore,
Maryland for Appellee.

Unpublished opinions are not binding precedent in this circuit.

USUA4 Appeal: 20-1057
□oc: 16
hied: 07/17/2020
Pg: 2 of 3
Case 1:19-cv-02427-ADC Document 31-1 Filed 07/17/20 Page 2 of 3

PER CURIAM:
Solon Phillips appeals from the magistrate judge’s order1 granting Defendants’
motion to dismiss and dismissing his six-count amended civil action for lack of subject
matter jurisdiction under the Rooker-Feldman2 doctrine. Upon de novo review of the
dismissal decision, Burrell v. Virginia, 395 F.3d 508, 511 (4th Cir. 2005), we conclude
that, as to counts 1 through 4, the magistrate judge correctly held that the claims were
barred by the Rooker-Feldman doctrine. See Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284 (2005) (“The Rooker-Feldman doctrine ... is confined to . . .
cases brought by state-court losers complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced and inviting district court review
and rejection of those judgments.”); Thana v. Bd. of License Comm ’rs for Charles Cty.,
827 F.3d 314, 319-20 (4th Cir. 2016).
As to counts 5 and 6, however, we conclude that those counts are not barred by the
Rooker-Feldman doctrine. Unlike counts 1 through 4, counts 5 and 6 do not claim injuries
caused by the judgment of the Maryland Court of Appeals. Instead, counts 5 and 6 allege
that the Board engaged in actions that violated Phillips’ Constitutional rights (count 5) and
amounted to a tort under state law (count 6). Because these counts do not seek “redress for
an injury caused by the state-court decision itself” Davani v. Virginia Dep 7 of Transp.

The parties consented to the jurisdiction of the magistrate judge under 28 U.S.C.
§ 636(c) (2018).
2 D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983); Rooker v. Fid. Tr. Co.,
263 U.S. 413 (1923).
2

USCA4 Appeal: 20-1057 UOC: 15
Hied: 07/17/2020
Pg: 3 of 3
Case 1:19-cv-02427-ADC Document 31-1 Filed 01HIHO Page 3 of 3

434 F.3d 712, 718 (4th Cir. 2006) (emphasis added), they are not barred by the RookerFeldman doctrine. See Thana, 827 F.3d at 320 (“[I]f a plaintiff in federal court does not
seek review of the state court judgment itself but instead presents an independent claim, it
is not an impediment to the exercise of federal jurisdiction that the same or a related
question was earlier aired between the parties in state court”) (emphasis and internal
quotation marks omitted). We therefore reverse the magistrate judge’s dismissal of counts
5 and 6 and remand for further proceedings on those counts. We treat Phillips’ motion for
judicial notice as a motion to supplement his informal briefs, grant that motion, and
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED IN PART,
REVERSED IN PART, AND REMANDED

3

Case 1:19tCV-02427-ADC Document 22 Filed 12/19/19 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOLON PHILLIPS,
Plaintiff,
vs.

*
*
*
*
♦

Civil Action No. ADC-19-2427

*
*
MARYLAND BOARD OF LAW
*
EXAMINERS, ei al,
*
*
Defendants.
*
****************************

MEMORANDUM OPINION
Defendants, the Maryland Board of Law Examiners (the “Board”) and Johnathan Azrael,
John Mudd, David Ralph, and Matthew Mills (collectively “Defendants”), move this Court to
dismiss the Complaint ofpro se Plaintiff, Solon Phillips, for constitutional vagueness, civil rights
violations, due process violations, and gross negligence (the “Motion to Dismiss”) (ECF No. 18).
After considering the Motion to Dismiss and the responses thereto (ECF Nos. 20, 21), the Court
finds that no hearing is necessary. SeeLoc.R 105.6 (D.Md. 2018). For the reasons stated herein,
the Court GRANTS Defendants’ Motion to Dismiss.
Factual Background1
Plaintiff is forty-five years old and graduated from the American University Washington
College of Law in 2008 with a juris doctor degree. ECF No. 7 at 2, ff 4-5. While Plaintiff was in
law school, he and his ex-wife went through divorce proceedings. Id. at 6-8, If 33, 39-42. During
the tumultuous proceedings, Plaintiff filed a motion to recuse the judge presiding over his divorce
for being biased against him in issuing certain orders. Id. at 7, f 40. In November 2008, the judge

i

The facts are presented as alleged in Plaintiff’s Complaint, except where otherwise indicated.
1

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 2 of 13

recanted her previous controversial ruling and closed Plaintiffs divorce case. Id. at 7, f 42.
Unbeknownst to Plaintiff, after closing his case, the judge sent a letter to the Board recommending
they deny his admission to the Maryland bar. Id. at 7-8, ^ 43.
After pursuing an MBA degree, in February 2011, Plaintiff sat for the bar exam, which he
passed. Id. at 8, f 45. Prior to graduating law school, Plaintiff had attended a Character Committee
interview in 2007, and had received a favorable recommendation from his interviewer. Id. at 8, Tf
46. After Plaintiff did not receive his expected tickets to the June 2011 bar admission ceremony,
Plaintiff was informed he needed to fill out a new bar application, which he did. Id. at 8, Iff 4749. After inquiring over several months about when he would be sworn in, Plaintiff was informed
his prior divorce judge’s letter to the Board had surfaced, and he was required to attend a character
hearing. Id. at 8, «J 50. At the end of the hearing, Plaintiff was informed that his application was
being held open, and after he updated his application with a copy of his credit report a decision
would be made. Id. at 9,155.
In 2013, while Plaintiffs bar application was still pending, a member of an online support
group of which Plaintiff was a part asked Plaintiff for help handling interactions with her exhusband’s new wife. Id. at 10,

66-67. Plaintiff had never met or spoken on the phone with this

woman, but he emailed her a copy of a cease-and-desist letter she could send to her ex-husband’s
new wife. Id. at 10, f 68. After the member approved the contents of the letter, Plaintiff decided it
needed to be more effective. Id. at 11, f 69. In 2007, while in law school, Plaintiffhad incorporated
a law firm for himself, his father, and his high school friend called Phillips, Phillips, and Dow,
LLC. Id. at 10, f 64. In addition to prematurely incorporating, Plaintiff also .purchased letterhead
for the firm in 2007. Id. at 10, f 65. In 2013, while assisting the member, he printed the cease-anddesist letter on the 2007 firm letterhead and signed his father’s—a licensed Maryland attorney—

2

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 3 of 13

name to the letter without his father’s knowledge. Id at 11, f 69. When the member’s ex-husband’s
new wife received the letter, she filed a complaint with the Maryland Attorney Grievance
Commission, who opened an investigation into Plaintiffs father. Id. at ll,*[fl[ 73-74. Plaintiff was
summoned to be a witness in his father’s disbarment hearing, and his father was ultimately
disbarred. Id. at 11,

75-76; see also Attorney Grievance Comm’n v. Phillips, 451 Md. 653

(2017). At some point after learning about the disbarment proceedings against his father, Plaintiff
asked his attorney to inform the Board of the dispute. ECF No. 7 at 11, f 78. As a result of the
pending action against his father, Plaintiff, on the advice of counsel, withdrew his bar application
in 2015. Id. at 12,180.
In 2016, Plaintiff resubmitted his Maryland bar application. Id. at 12, ^ 84. Plaintiff took
and passed the Maryland bar exam again in February 2017. Id at 12, fflj 85-86. After finding out
he passed the Maryland bar exam for the second time, Plaintiff decided to apply to the Florida bar
in May 2017. Id at 12,

86-87. Also in May 2017, Plaintiff had an interview with Character

Committee member Deborah Johnson. Id. at 12, 88. Plaintiff alleges he disclosed his application •
to the Florida bar and his involvement with his father’s disbarment hearing to Ms. Johnson, who
gave Plaintiff a favorable recommendation. Id at 13,189. In June 2017, Plaintiff received notice
from the Board that he would have a character hearing in July 2017. Id. at 13, K 91. Plaintiff alleges
Defendants did not provide him with a copy ofMs. Johnson’s report ahead of the hearing, violating
a Maryland rule regarding this procedure. Id. at 13, f 92. At the hearing, the Board wanted to
discuss Plaintiffs (1) unauthorized practice of law, (2) contribution to his father’s disbarment, and
(3) pattern of lack of candor and failure to abide by the law. Id. at 13, f 93. In October 2017, the
Board issued a final recommendation that Plaintiff be denied admission to the bar. Id. at 14,1101.

3

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 4 of 13

Because Plaintiff received a favorable recommendation from the Character Committee and
an unfavorable recommendation from the Board, per Maryland Rule, the Court of Appeals of
Maryland issued Plaintiff a notice of hearing for Plaintiff to argue the Court of Appeals should
accept the Committee’s recommendation. Id. at 15,

104-05. On November 6, 2017, at the

hearing, Plaintiff argued that the Board erroneously believed he had not disclosed information he
had actually disclosed. Id. at 16,111.
On November 30,2017, before the Court of Appeals had issued a decision on his hearing
and application, Plaintiff attended an interview with the North American Securities Administrators
Association (“NASAA”). Id. at 16,

112; ECF No. 18-1 at 9. Plaintiff had applied for a position

with NASAA with a resume that listed his email address as “solonesq@gmail.com,” stated he had
worked as a “Junior Associate” at Arnold & Porter, LLP for seven years, and stated he had acquired
“Maryland Bar Admission.” ECF No. 18-1 at 9—10. During Plaintiff’s interview with A. Valerie
Mirko, Esq., Ms. Mirko learned that Plaintiffwas not a member of the Maryland bar—or any bar—■
and the interview ended. Id.; ECF No. 7 at 16, ^1115. Ms. Mirko advised the Board of the incident.
Id. at 16,116. On December 11,2017, the Board submitted an addendum to its recommendation
to the Court of Appeals detailing the incident between Plaintiff and Ms. Mirko. Id.-, ECF No. 18-1
at 9.
On December 20, 2017, the Court of Appeals published an opinion denying Plaintiff’s.
. application to the Maryland bar. In re Phillips, 547 Md. 113 (2017)2 The Court of Appeals found
that Plaintiff “ba[d] not met his burden of showing his good moral character and fitness for the
practice of law due to his continuous ‘failure [and] refusal to answer fully and candidly any

2'This Court takes proper judicial notice of “docket entries, pleadings and papers in other cases”
in reciting the background of this case. Brown v. Ocwen Loan Servicing, LLC, PJM-14-3454,2015
WL 5008763, at *1 n.3 (D.Md. Aug. 20,2015), aff’d, 639 F.App’s 200 (4th Cir. 2016).
4

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 5 of 13

question in the application.’” Id. at 127 (quoting Md. Rule 19-20,3(d)). The Court was particularly
disturbed by Plaintiff’s actions leading to his father’s disbarment and his conduct regarding his
NASAA application. Id. at 127—28. The Court found Plaintiff “ha[d] demonstrated a disturbing
pattern of selective candor, which ‘impinges upon his character and fitness to practice law.’” Id.
(quoting Application ofStrzempek, 407 Md. 102, 114 (2008)). Ultimately, the Court of Appeals
concluded that Plaintiff would not be admitted to the Maryland bar.
Procedural Background
On August 22, 2019, Plaintiff filed this suit in this Court against Defendants, alleging
constitutional violations of vagueness, civil rights, and due process and gross negligence, seeking
that this Court declare Defendants’ application of Maryland’s character and fitness standards as
applied to Plaintiff was unconstitutional, declare Defendants grossly negligent for failing to
recommend Plaintiff s admission to the Maryland bar, and declare “that Plaintiff must be admitted
to practice law in Maryland.” ECF No. 7 at 33.3 On October 23, 2019,4 Defendants filed the
Motion to Dismiss for lack of subject matter jurisdiction and for the failure to state a claim. ECF
No. 18. Plaintiff filed an opposition on November 5, 2019, ECF No. 20, to which Defendant
replied on November 12,2019, ECF No. 21.
This matter is now fully briefed, and the Court has reviewed Defendant’s Motion to
Dismiss, as well as the responses thereto.: For the following reasons, Defendant’s Motion to
Dismiss (ECF No. 18) will be GRANTED.

3 ECF No. 7 is Plaintiff s Amended Complaint. Plaintiff voluntarily filed an Amended Complaint
on September 13, 2019, solely “to include all character references as exhibits.” ECF No. 7 at 1.
The contents of the Complaint remained unchanged.
4 In accordance with Standing Order 2019-07 of the United States District Court for the District of
Maryland and upon consent of all parties, this case was directly assigned to United States
Magistrate Judge A. David Copperthite for all proceedings on September 11,2019. ECF No. 4.
5

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 6 of 13

Discussion
Defendants move to dismiss Plaintiff s claims pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6). ECF No. 18 at 1. Because this Court finds it does not have subject matter
jurisdiction over this suit, it will only address Defendants’ Rule 12(b)(1) arguments.
A. Standard of Review
A motion to dismiss under Federal Rule of Civil Procedure 12(b)(1) for lack of subject
matter jurisdiction challenges a court’s authority to hear the matter brought in a complaint. See
Davis v. Thompson, 367 F.Supp.2d 792, 799 (D.Md. 2005). Essentially, a Rule 12(b)(1) motion
to dismiss asserts that the plaintiff lacks “a right to be in the district court at all.” Holloway v.
Pagan River Dockside Seafood, Inc., 669 F.3d 448,452 (4th Cir. 2012). The burden of establishing
the court’s subject matter jurisdiction rests with the plaintiff. Evans v. B.F. Perkins Co., 166 F.3d
642, 647 (4th Cir. 1999).
A defendant can challenge the District Court’s jurisdiction either facially or factually. See
Kerns v. United States, 585 F.3d 187, 192 (4th Cir. 2009). When a defendant presents a fecial
challenge, the defendant “contend[s] ‘that a complaint simply fails to allege facts upon which
subject matter jurisdiction can be based.’” Id. (quoting Adams v. Bain, 697 F.2d 1213,1219 (4th
Cir. 1982)). When addressing a facial challenge, a court takes the complaint’s allegations as true
and denies the motion “if the complaint alleges sufficient facts to invoke subject matter
jurisdiction.” Id When a defendant presents a factual challenge, the defendant contends that the
allegations in the plaintiff’s complaint arc not true. See id. When addressing a factual challenge, a .
court ‘“may then go beyond the allegations of the complaint and in an evidentiary hearing
determine if there are facts to support the jurisdictional allegations,’ without converting the motion
to a summary judgment proceeding.” Id. (quoting Adams, 697 F.2d at 1219) (emphasis omitted).

6

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 7 of 13

B. Defendants’ Motion to Dismiss'
In their Motion, Defendants seek to dismiss all claims against them for lack of subject
matter jurisdiction. Defendants appear to raise a facial challenge to the Court’s subject matter
jurisdiction, and the Court will take the allegations in Plaintiff’s Complaint as true. The Court will
i

address all Counts.
1. The Court of Appeals of Maryland Has Exclusive Jurisdiction over Bar Admission
Decisions.
Plaintiff requests that this Court “declare that Plaintiff must be admitted to practice law in
Maryland,” among other forms of relief. ECF No. 7 at 33. Defendants argue that this Court cannot
provide Plaintiff this specific form of relief because the Court of Appeals of Maryland has
exclusive jurisdiction over admission to the Maryland bar. ECF No. 18-1 at 18-20. Plaintiff
contends he “is requesting that this Court declare his rights as a qualified applicant seeking
admission to the Maryland bar,” and this Court has the authority to do so. ECF No. 20 at 2
(emphasis in original). The Court agrees with Defendants.
It is true, of course, that the privilege of practicing law is a valuable one and that
the requirements of procedural due process must be met before a State can exclude
a person from practicing law. It is equally true, however, that there is no vested
right in an individual to practice law, and that the State can bestow the privilege
upon such conditions governing its exercise as will be consistent with the privilege's
nature and purpose.
Attorney Grievance Comm 'n v. Reamer, 281 Md. 323,330-31 (1977) (internal citations omitted).
There is no question that the Court of Appeals of Maryland has exclusive jurisdiction over
who is and is not admitted to practice law in Maryland. “Since the passage of Ch. 139 of the Laws
of 1898 ... the Court of Appeals in the exercise of its inherent and fundamental judicial powers
has supervised, regulated and controlled the admission of lawyers.” Maryland State Bar Ass’n v.
Boone, 255 Md. 420,429 (1969); see also In re Application ofKimmer, 392 Md. 251,269 (2006)

7

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 8 of 13

(“[I]t has been clear, since 1898, that the Court of Appeals has had exclusive jurisdiction over the
regulation of, and admission to, the practice of law.”), Application of Allen S., 282 Md. 683, 689
(1978) (“Upon [the Court of Appeals] falls the primary and ultimate responsibility for regulating
the practice of law and the conduct and admission of attorneys in this State.”), Bastian v. Watkins,
230 Md. 325,329 (1963) (“[I]n 1898, following a definite trend toward uniformity that apparently
began as early as 1831, the Court of Appeals of Maryland was vested with exclusive power to
admit applicants to practice law.”). Currently, the Maryland Code provides, “Subject to this title,
the Court of Appeals shall adopt rules that govern the standards and procedures for admission to
the Bar.” Md. Code, Bus. Occ. & Prof. § 10-103(a). Pursuant to this Maryland Code provision,
the Court of Appeals has adopted a number of Rules governing admission to the Maryland bar,
including establishing both a State Board of Law Examiners and regional Character Committees.
See Md. Rule §§ 19-102-103,19-204.
Plaintiff contends that he “is not asking this Court to admit him into the Maryland bar,” so
the Defendant’s jurisdictional argument should fail. ECF No. 20 at 1. The requested relief in the
Complaint, however, asks this Court to “declare that Plaintiff must be admitted to practice law in
Maryland.” ECF No. 7 at 33. This Court not only lacks the authority to admit Plaintiff to the
Maryland bar but also lacks the authority to declare Plaintiff must be so admitted. This Court is
neither the State Board of Law Examiners nor a Character Committee—the entities the Court of
Appeals has created to issue recommendations for bar applicant admissions. Furthermore, even if
this Court could “declare Plaintiff must be admitted” to the Maryland bar, the Court of Appeals
would have no obligation to comply with that declaration, as it retains exclusive jurisdiction over
who is ultimately admitted to practice law. Accordingly, to the extent Plaintiff requests this Court

8

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 9 of 13

declare Plaintiff must be admitted to the Maryland bar, this Court lacks subject matter jurisdiction,
and Defendants’ Motion to Dismiss is GRANTED.
2. This Court Lacks Subject Matter Jurisdiction over this Action Under the RookerFeldman Doctrine.
Plaintiff’s Complaint against Defendants contains six claims: (1) Maryland’s character and
fitness evaluation “as it was applied to Plaintiff[] is unconstitutionally vague and arbitrary”; (2)
Defendants denied Plaintiff the “right and privilege to practice law in Maryland” in violation of
42 U.S.C. § 1983; (3) Defendants violated Plaintiff’s Due Process rights by declining to
recommend his admission to the bar on an unfounded basis; (4) Defendants violated Plaintiffs
Due Process rights by denying him the opportunity to be heard; (5) Defendants violated Plaintiff’s
Due Process rights by allowing an unconstitutional delay processing his application; and (6)
Defendants were grossly negligent in handling Plaintiff’s character evidence. Defendants argue
that the Court lacks subject matter jurisdiction over all claims because Plaintiff is attempting to
appeal a state court judgment against him to this Court. ECF No. 18-1 at 21-22. While Plaintiff
contends that he properly seeks declaratory relief under the Declaratory Judgment Act, ECF No.
20 at 2, Defendants counter that Plaintiff merely “seeks to relitigate the merits of his underlying
Court of Appeals of Maryland decision not to admit him into the Maryland State Bar,” ECF No.
21 at 1. The Court agrees with Defendants.
a. The Rooker-Feldman Doctrine and Its Application
Federal district courts may only exercise “original, not appellate, jurisdiction.” Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 283 (2005). Upholding the prohibition on
federal district courts’exercise of appellate jurisdiction, the Rooker-Feldman doctrine overrides
concurrent jurisdiction of federal and state courts in limited circumstances. Id. The doctrine was
derived from two United States Supreme Court cases, Rooker v. Fidelity Trust Co., 263 U.S. 413
9

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 10 of 13

(1923), and District ofColumbia Court of Appeals v. Feldman, 460 U.S. 462 (1983). The Supreme
Court held “the federal suits [in Rooker and in Feldman] impermissible,” and “emphasized that
appellate jurisdiction to reverse or modify a state-court judgment is lodged, initially by § 25 of the
Judiciary Act of 1789, and now by 28 U.S.C. § 1257, exclusively in [the Supreme] Court.” Exxon
Mobil Corp., 544 U.S. at 283 (internal citations omitted). In both Rooker and Feldman,
the losing party in state court filed suit in federal court after the state proceedings
ended, complaining of an injury caused by the state-court judgment and seeking
review and rejection of that judgment. Plaintiffs in both cases, alleging federalquestion jurisdiction, called upon the District Court to overturn an injurious statecourt judgment. Because § 1257, as long interpreted, vests authority to review a
state court’s judgment solely in [die Supreme] Court, the District Courts in Rooker
and Feldman lacked subject-matter jurisdiction.
Id. at 291 (internal citations omitted). Essentially, the Rooker-Feldman doctrine applies to “cases
brought by state-court losers complaining of injuries caused by state-court judgments rendered
before the district court proceedings commenced and inviting district court review and rejection
of those judgments.” Id. at 284.
One of the cases from which this doctrine is derived—District of Columbia Court of
Appeals v. Feldman—is direcdy analogous to the instant matter. In Feldman, two District of
Columbia bar applicants were challenging the D.C. Court of Appeals’ denial of their bar
{

applications. Both applicants were seeking declarations from the district court that the Court of
Appeals violated their Due Process rights, among other forms of relief. Feldman, 460 U.S. at 46569,470-73. Ultimately, the Supreme Court held that district courts
have subject matter jurisdiction over general challenges to state bar rules,
promulgated by state courts in non-judicial proceedings, which do not require
review of a final state court judgment in a particular case. They do not have
jurisdiction, however, over challenges to state court decisions in particular cases
arising out of judicial proceedings even if those challenges allege that the state
court’s action was unconstitutional.

10

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 11 of 13

Id at 486. The only avenue for review of a state court’s decision regarding an individual bar
application is in the Supreme Court. Id. Furthermore, “Feldman made clear that this rule applied
even to constitutional claims where such claims ‘are inextricably intertwined with the state court’s
denial in a judicial proceeding of a particular plaintiffs application for admission to the state’s
bar.’” Czura v. Supreme Court of South Carolina, 813 F.2d 644, 646 (4th Cir. 1987) (quoting
Feldman, 460 U.S. at 482-83 n.16). This rule equally applies to alleged constitutional violations
by a state’s Board of Law Examiners, because “the Board is an extension of the state court,” and,
therefore, “[fjederal district court review of a decision by the Board raises the same principles of
equity, comity, and federalism as would federal review of an action taken by the state court
directly.” Sibley v. Hergenroeder, No. DKC 2006-1222, 2006 WL 3354137, at *3 (D.Md. Nov.
17, 2006) (finding the District Court lacked subject matter jurisdiction when the plaintiff
challenged the Maryland Board of Law Examiner’s decision to delay finalizing plaintiffs bar
application).
Here, Plaintiff challenges Defendants’ actions directly relating to Plaintiffs application for
admission to the bar as well as the Court of Appeals’ denial of his application. Because Plaintiffs
case is directly analogous to the issues addressed in Feldman, this action falls squarely within the
Rooker-Feldman doctrine.
b. Plaintiffs Civil Rights, Due Process, and Gross Negligence Claims (Counts IIVI)
In Counts II-VI, Plaintiff brings a § 1983 Civil Rights claim, three Due Process claims,
and a gross negligence claim. All five claims relate to Defendants’ handling of his bar application.
Even though four of the five Counts contain constitutional claims,, the claims are “inextricably
intertwined” with Defendants’ recommendation of denial—and the Court of Appeals’ ultimate
denial—of Plaintiff s bar application. See Feldman, 460 U.S. at 486. Accordingly, this Court lacks
11

Case l:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 12 of 13

subject matter jurisdiction over Counts II-VI, and the Court will GRANT Defendants’ Motion to
Dismiss as to these claims.
c. Plaintiff’s Constitutional Vagueness Claim (Count I)
In Count I, Plaintiff challenges the constitutionality of Maryland’s character and fitness
rules and procedure. He alleges that the character and fitness test, “as it was applied to Plaintiff, is
unconstitutionally vague and arbitrary.” ECF No. 7 at 20, If 139. He contends that the denial of his
bar admission “based on a vague and arbitrary process as applied to his application” was through
a procedure that “was and is severely damaged,” and Plaintiff “asks this Court to declare that the
entire application process as applied to Plaintiff was unconstitutional.” Id. at 20, ^f 140. From his
complaint, it is clear to the Court that Plaintiff is raising a challenge to the constitutionality of the
Maryland character and fitness rules and procedure as they were applied to his specific application,
and npt a challenge to the constitutionality of the rules generally. This conclusion is bolstered by
the fact that Plaintiff does not request a general determination of the constitutionality of the
character and fitness rules; he specifically requests a determination regarding the process “as it
was applied to Plaintiff” Id at 33 (emphasis added). Even in Plaintiff’s Response in Opposition,
he asks this Court to decide “whether Defendants violated his rights pursuant to the facts and the
law.” ECF No. 20 at 5 (emphasis added).
Plaintiffs challenge is not a “general challenge^ to state bar rules. . . which do[es] not
require review of a final state court judgment in a particular case”; it is instead a challenge to the
Court of Appeals’ denial of his bar application. See Feldman, 460 U.S. at 486. Accordingly, this
Court does not have subject matter jurisdiction over Count I, and the Court will GRANT
Defendants’ Motion to Dismiss as to this claim.

12

<

Case 1:19-cv-02427-ADC Document 22 Filed 12/19/19 Page 13 of 13

Conclusion
For the reasons stated herein, Defendant’s Motion to Dismiss (ECF No. 18) is GRANTED.
The Clerk is directed to CLOSE this case. A separate Order will follow.
Date:
A. David Copperthite
United States Magistrate Judge

-

:•
4

*

r
•S'

1

13

